 SEMIANNUAL REPORT TO CONGRESS

       October 1, 2003 to March 31, 2004




                   NATIONAL
                  ENDOWMENT
                    FOR THE
                  HUMANITIES


  “Democracy demands wisdom and vision in its citizens”
National Foundation on the Arts and Humanities Act of 1965
                    THE OFFICE OF INSPECTOR GENERAL

                                 serves American taxpayers
                           by investigating reports of waste, fraud,
                        mismanagement, abuse, integrity violations or
                          unethical conduct involving federal funds.



                               To report any suspected activity
                     involving NEH programs, operations, or employees

                                      Call the OIG Hotline

                                         (202) 606-8423



                                        Mailing Address

                      Office of Inspector General — Hotline
                     National Endowment for the Humanities
                          1100 Pennsylvania Ave. N.W., Room 419
                                 Washington, DC 20506


                                     Fax:   (202) 606-8329


                              Electronic Mail Hotline: oig@neh.gov




Government employees are protected from reprisal

Caller can remain anonymous

Information is confidential



This report is also available on the NEH/OIG Website at http://www.neh.gov/whoweare/oig.html
                        NATIONAL ENDOWMENT FOR THE HUMANITIES

                              Phone (202) 606-8350   Fax (202) 606-8329   Email: oig@neh.gov




OFFICE OF INSPECTOR GENERAL


                                                     April 28, 2004

  Honorable Bruce Cole
  Chairman
  National Endowment for the Humanities
  Washington, D.C. 20506

  Dear Chairman Cole:

  I am pleased to provide you with the Office of Inspector General’s Semiannual Report to Congress
  for the first half of fiscal year 2004.

  The report is submitted in accordance with the Inspector General Act of 1978, as amended. Section
  5 of the Act requires that you submit this report, with your Report of Final Action, to the appro-
  priate committee or subcommittee of the Congress within 30 days of its receipt. The report
  provides a summary of the activities of the OIG during the six- month period ended
  March 31, 2004.

  During this period, we completed and issued reports on two internal reviews, one telephone survey
  of a grantee’s accounting and management system, one quality review of a grantee’s independent
  public accounting firm and five overhead desk reviews. In addition, we processed 89 OMB Circu-
  lar A-133 audit reports, with four containing findings. The reports on the four will be issued during
  the next semiannual period. Two reviews are in progress and we expect to issue the reports in the
  next reporting period. In the investigations program, we received several “Hotline” contacts. Two
  contacts from this period and one from the prior semiannual report are open.

  I appreciate your support and look forward to working with you and all agency staff to help ensure
  that NEH delivers grant awards in an economical, effective and efficient manner.

                                                     Sincerely,




                                                     Sheldon L. Bernstein
                                                     Inspector General
                                                   TABLE OF CONTENTS



LETTER TO THE CHAIRMAN

THE NATIONAL EDOWMENT FOR THE HUMANITIES……………………………………………….                                                                         1

THE OFFICE OF INSPECTOR GENERAL.................................................................................                    1

AUDIT AND REVIEW ACTIVITIES ............................................................................................            2

INVESTIGATIVE ACTIVITIES ………………………………………………………………………….. ...                                                                         6

OTHER ACTIVITIES.................................................................................................................   8

TABLE I - REPORTING REQUIREMENTS……………………………………………………………….                                                                           10

TABLE II - INSPECTOR GENERAL-ISSUED REPORTS ............................................................                            11
WITH QUESTIONED COSTS

TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH ..................................................                                11
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

GLOSSARY OF AUDIT TERMINOLOGY ...................................................................................                   12
                   THE NATIONAL ENDOWMENT FOR THE HUMANITIES
       In order to promote progress and scholarship in the humanities and the arts in the United States, Congress
       enacted the National Foundation on the Arts and the Humanities Act of 1965. This Act established the National
       Endowment for the Humanities as an independent grant-making agency of the federal government to support
       research, education, and public programs in the humanities. Grants are made through four divisions - Research
       Programs, Education Programs, Preservation and Access, and Public Programs -- and two offices -- Challenge
       Grants and Federal-State Partnership. These divisions and offices administer the We the People: NEH’s Ameri-
       can History Initiative.

       The Act that established the National Endowment for the Humanities says "The term 'humanities' includes, but is
       not limited to, the study of the following: language, both modern and classical; linguistics; literature; history;
       jurisprudence; philosophy; archaeology; comparative religion; ethics; the history, criticism, and theory of the arts;
       those aspects of social sciences which have humanistic content and employ humanistic methods; and the study
       and application of the humanities to the human environment with particular attention to reflecting our diverse
       heritage, traditions, and history and to the relevance of the humanities to the current conditions of national life."




                            THE OFFICE OF INSPECTOR GENERAL

        The NEH Office of Inspector General was established on April 9, 1989, in accordance with the Inspector
        General Act Amendment of 1988, (Public Law 100-504). In this legislation, Congress established Offices of
        Inspector General in several departments and in thirty-three agencies, including the NEH. The NEH Inspector
        General (IG) is appointed by the Chairman. The independence of the IG is an important aspect of the Act. For
        example, the IG:

        •    cannot be prevented from initiating, carrying out, or completing an audit or investigation, or from issuing any
             subpoena;

        •    has access to all records of the agency;

        •    reports directly to the Chairman, and can only be removed by the Chairman, who must promptly advise
             Congress of the reasons for the removal; and

        •    reports directly to Congress.

        The Act states that the Office of Inspector General is responsible for (1) conducting audits and investigations;
        (2) reviewing legislation; (3) recommending policies to promote efficiency and effectiveness; and (4) preventing
        and detecting fraud, waste, and abuse in the operations of the agency. The Inspector General is also
        responsible for keeping the Chairman and Congress fully and currently informed of problems and deficiencies
        in the programs and operations.

        The OIG staff consists of the Inspector General, a Deputy Inspector General, two auditors, and a secretary.
        The OIG and the Office of the General Counsel (OGC) have a Memorandum of Understanding detailing the
        procedures for the OIG to be provided with OGC legal services. Investigations are handled by the Inspector
        General, an auditor and as required by the agency’s Assistant General Counsel.




NEH OIG Semiannual Report                                     1                                                   March 2004
                               AUDIT AND REVIEW ACTIVITIES

                                          LIST OF REPORTS ISSUED
    This office is responsible for external and internal audits. External auditing includes grants, pre-award accounting
    system surveys, review of OMB Circular A-133 audit reports, and on-site quality control reviews of CPA work
    papers. Internal efforts consist of audits, inspections, and reviews/evaluations of NEH administrative,
    programmatic, and financial operations.

    Following is a list of reports issued by the OIG during this reporting period. We also received and processed 89
    OMB Circular A-133 audit reports, (see Single Audit Act Reviews). The Inspector General Act of 1978, as
    amended, requires us to report on the "Dollar Value of Recommendations that Funds Be Put to Better Use" and the
    "Total Dollar Value of Questioned Costs" (including a separate category for the “Dollar Value of Unsupported
    Costs”). None are reported during this period.


   INTERNAL AUDITS/REVIEWS                                              Report Number               Date Issued


   Fiscal Year Ended September 30, 2003 Consolidated                    OIG-04-01 (IR)              01/12/04
   Review of the Federal Managers’ Integrity Act (FMFIA)

   Review of the NEH Purchase Card Program                              OIG-04-01 (IA)              03/22/04


   EXTERNAL AUDITS/REVIEWS/SURVEYS


   New England Historic Genealogical Society                            OIG-2004-01 (TS)            03/09/04
   Telephone Survey


   Quality Control Review of Vitale, Caturano & Co., PC                 OIG-04-101 (QCR)            03/22/04
   Audit of the Northeast Document Conservation Center
   for the Fiscal Year Ended June 30, 2002


   SINGLE AUDIT ACT REVIEWS

   None issued this period. (See page 5.)


   OVERHEAD DESK REVIEWS

   Society for American Archivists                                      NEH-04-01 (ODR)             02/02/04
   Mercantile Library                                                   NEH-04-02 (ODR)             02/04/04
   New York Foundation for the Arts                                     NEH-04-03 (ODR)             02/10/04
   National Video Resources                                             NEH-04-04 (ODR)             02/09/04
   American Academy in Rome                                             NEH-04-05 (ODR)             03/22/04




NEH OIG Semiannual Report                                    2                                                   March 2004
                            AUDIT AND REVIEW ACTIVITIES (Continued)

                                       SUMMARY OF REPORTS ISSUED
                                              INTERNAL REVIEWS/AUDITS

    •    We issued report OIG-04-01 (IR), Fiscal Year Ended September 30, 2003, Consolidated Review of the
         Federal Managers’ Integrity Act (FMFIA), on January 12, 2004. The review was conducted to determine
         whether the information submitted by each division director/office head provided reasonable assurance for the
         chairman that they complied with FMFIA. We found that the agency generally complied with the Act; thus pro-
         viding assurance that the chairman can report the results to President Bush.

    •    We issued report OIG-04-01 (IA), Review of the NEH Purchase Card Program on March 22, 2004. The ob-
         jectives of our review were to (1) determine if the NEH purchase card program is operated in accordance with
         applicable federal laws, regulations, and NEH policies and procedures, and (2) assess the adequacy of inter-
         nal/management controls to help prevent fraud, waste and abuse by cardholders or others who may attempt to
         manipulate the program.

         We found several conditions that, in our opinion, compromise the control environment related to the NEH pur-
         chase card program.

         1.   Lack of Segregation of Duties. The Contracting Officer is also the Director of the Administrative Services
              Office, (ASO), the Agency Purchase Card Program Coordinator, and the approving official.

              The purchase card program is administered by the Director of the ASO and purchase card transactions are
              executed by ASO staff. This single individual has control of multiple key aspects of the purchase card
              process creating a situation wherein improper use or fraud could be committed by that individual and not
              be detected.

         2.   Purchase Card/Account Sharing. The secretary of the ASO executes purchase card transactions using
              accounts assigned to other cardholders. This is done at the direction of the Contracting Officer. This
              practice is contrary to Treasury Department policy that states that only the person assigned the purchase
              card may use that card. Purchase card account sharing increases the vulnerability of shared accounts to
              improper use or fraud.

         3.   Non-current Written Delegation of Authority. In response to our request for a copy of the most recent
              delegation of authority letters for the current cardholders, the Contracting Officer only provided a letter con-
              cerning one of the three cardholders. In the letter, dated March 10, 1994, authority was given to the card-
              holder to purchase gasoline with a single purchase limit not to exceed $100. In contrast, the Contracting
              Officer had previously provided information to the OIG indicating that the cardholder’s single purchase limit
              was $10,000. The Treasury Financial Manual prescribes that a written delegation of authority should be
              issued to each authorized cardholder.

         4.   Results of Transaction Testing. We found the ASO secretary executed approximately 36 percent of the
              purchase card charges, excluding charges related to Metro fare cards and Smart Card benefits—these are
              handled by the Contracting Officer. We identified two transactions wherein sales tax was paid although the
              federal government is exempt from state and local taxes. In one transaction we found that the cardholder
              exceeded his single purchase limit of $10,000. In addition, we found one transaction wherein the purchase
              card was used for telecommunication services that is contrary to NEH Administrative Directive M-108.

              We made specific recommendations advising the agency how to correct these internal control
              weaknesses.




NEH OIG Semiannual Report                                       3                                                   March 2004
                            AUDIT AND REVIEW ACTIVITIES (Continued)

                            EXTERNAL AUDITS/REVIEWS/SURVEYS/OVERHEAD DESK REVIEWS


       •    We issued a memorandum report OIG-2004-01(TS), New England Historic Genealogical Society Tele-
            phone Survey, on March 9, 2004. This review was conducted in accordance with the President’s Council
            on Integrity and Efficiency (PCIE), Quality Standards for Inspections. The grantee was selected for this
            review because in a previous audit, the auditor’s found that the grantee did not maintain an accounting and
            management system that provided reasonable assurance that amounts claimed on the final report for a
            prior grant could be reconciled and traced back to the Society’s books and records. The NEH policy re-
            quires a pre-award accounting and management survey for the grantee to obtain a grant because of the
            prior deficiencies. We determined that the Society understands the federal and NEH regulations governing
            a new grant award. We informed the grantee that they can expect an OIG audit and that we would recover
            all amounts questioned in the audit.

       •    We issued report OIG-04-01 (QCR), Quality Control Review of Vitale, Caturano & Company, PC, Audit
            of the Northeast Document Conservation Center for the Fiscal Year Ended June 30, 2002, on March
            22, 2004. Our review was conducted in accordance with General Accepted Government Auditing Stan-
            dards (GAGAS). The objectives of the review were to ensure that the financial statement and compliance
            audit was conducted in accordance with GAGAS, and meets the single audit requirements. We found the
            financial statement audit was conducted in accordance with applicable standards. However, the reports on
            compliance with requirements applicable to major programs and the Schedule of Findings and Questioned
            Costs were not acceptable. The compliance audit did not detect material weaknesses in the grantee’s ac-
            counting system and the fact that salaries allocated to NEH projects were not supported by time and effort
            reports as required by federal directives.



                                              OVERHEAD DESK REVIEWS

       The NEH OIG performs overhead desk reviews (ODRs) for grantees requiring an indirect cost rate. The re-
       views are done in accordance with the PCIE, Quality Standards for Inspections. The OIG sends the results of
       the ODRs to the NEH Accounting Office, where a member of that staff contacts the grantee and negotiates an
       indirect cost rate. During this period we completed five reviews.




NEH OIG Semiannual Report                                    4                                                March 2004
                            AUDIT AND REVIEW ACTIVITIES (Continued)


                                             SINGLE AUDIT ACT REVIEWS

         We receive audit reports on NEH grantee organizations from other federal agencies (mainly the Department of
         Health and Human Services), state and local government auditors, and independent public accountants (IPA).
         These reports are the result of OMB Circular A-133 audits and they cover financial activity, compliance with
         laws and regulations, and grantee management (internal) controls over federal expenditures.


         During the six-month period ended March 31, 2004, we reviewed 89 OMB Circular A-133 audit reports. Four
         of the reports contained audit findings. We will issue a memo outlining the findings in April 2004.




                                             AUDITS/REVIEWS IN PROGRESS

                             Accounting System/Internal Control Review of Catticus Corporation

         The objective of this review is to determine the adequacy of the grantee’s accounting system, internal controls,
         and monitoring procedures related to two subrecipients. In addition, we are reviewing the adequacy of the two
         subrecipients’ accounting system and internal controls. The grantee was selected for this review because the
         organization received a substantial award from NEH and was not required to have an OMB Circular A-133 au-
         dit. The field work has been completed and we expect to issue the report in April 2004. This review has been
         delayed due to the effort being expended on an investigation.


                                   United States Accountability of Tax Dollars Act of 2002

         This law requires NEH, as well as several other small agencies and commissions, to prepare and submit to the
         Congress and the Director of the U.S. Office of Management and Budget an audited financial statement. NEH
         received a waiver for fiscal year 2003, but will be required to implement the law in fiscal year 2004. During this
         period staff have written a Request for Quotation and taken some training to provide adequate management of
         the audit. The OIG has continued to invest time and resources to effectively manage its oversight responsibili-
         ties in the process.




NEH OIG Semiannual Report                                     5                                                  March 2004
                                  INVESTIGATIVE ACTIVITIES

                                                  BACKGROUND

       The Inspector General Act provides the authority for the Office of Inspector General to investigate
       possible violations of criminal or civil laws, administrative regulations, and agency policies, which relate to
       the programs and operations of the NEH. The OIG Hotline, e-mail address, and regular mail are efficient
       and effective means of receiving allegations or complaints from employees, grantees, contractors, and
       the general public. The OIG has obtained assistance from other OIGs, the Federal Bureau of
       Investigation, the Postal Inspection Service, and other investigative entities as necessary.

       When the OIG receives a complaint or allegation of a criminal or administrative violation, we make a
       determination of the appropriate action to take. This can be an audit, an investigation, a referral to
       another NEH office or division, or a referral to another federal agency.

       As of October 1, 2003 one case was open. During the six months ended March 31, 2004, we received
       10 “Hotline" contacts. We are holding three matters open at March 31, 2004.


                                               OPEN AT OCTOBER 1, 2003

        As reported in our prior report we received an anonymous contact concerning a grantee in the New Eng-
        land area. The person made many allegations and our investigation found that there were indeed several
        problem areas. We uncovered that the gifts certified by the grantee for matching on an NEH challenge
        grant were not eligible for matching according to the NEH guidelines. We found that almost all of the
        “gifts” were not gifts, but grants or contracts for specific projects. We found the same problem on two
        other NEH grants that had matching components. In addition, we found that final Financial Status Re-
        ports, submitted by the grantee for NEH project grants, reflected budgeted amounts in lieu of actual
        amounts. The grantee’s books and records could not support the costs claimed. On a preliminary basis,
        we contacted the U.S. Attorney’s Office and expect to have this closed during the next reporting period.

                                            CONTACTS DURING THIS PERIOD


        During this reporting period, the OIG received 10 hotline contacts, of which five were internal, three con-
        cerned grantees, one related to a former high level NEHofficial and one that we referred to another
        agency. After preliminary investigations, the five internal and two grantee investigations were closed.
        Two matters have resulted in full investigations and remain open.

        One matter concerns the unauthorized release of confidential, non-public information relating to the
        agency’s internal policies and practices in its assessment of grant applications to a newspaper by a for-
        mer employee. The other open case involves a grantee institution and project director that may have
        provided false information in grant applications.




NEH OIG Semiannual Report                                      6                                                   March 2004
                            INVESTIGATIVE ACTIVITIES (Continued)

                              MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

       No new cases were referred for criminal prosecution during this reporting period. However, we made
       contact with the U.S. Attorney’s Office concerning one case and are completing the file to present to the
       U.S. Attorney.


                                  HOTLINE AND PREVENTION ACTIVITIES

       We maintain a local Hotline phone number, agency e-mail address, and an Internet address to provide
       additional confidentiality for those persons bringing matters to the attention of the OIG. We continue to
       issue agency-wide e-mail messages to NEH staff informing them of violations that should be reported to
       the OIG. We also send e-mail messages several times during the year to inform NEH staff about the
       OIG operations. Posters advising staff to contact the OIG are displayed throughout the agency building.



                                              ANONYMOUS E-MAIL

       We have on the NEH Intranet and the Internet a system for staff, grantees, contractors, etc., to report
       waste, fraud, abuse, and mismanagement in an anonymous manner.




                                 SUMMARY OF INVESTIGATION ACTIVITY



                                  Open at beginning of period               1

                               Matters brought to the OIG during
                                      the reporting period                 10


                                  Total investigative contacts             11

                                   Closed or referred during
                                     the reporting period                  8


                                     Open at end of period                 3




NEH OIG Semiannual Report                                      7                                                 March 2004
                                          OTHER ACTIVITIES


                                   PARTICIPATION ON THE EXECUTIVE COUNCIL ON
                                            INTEGRITY AND EFFICIENCY


       The Executive Council on Integrity and Efficiency (ECIE) was established by the President in 1992 to
       coordinate and implement government-wide activities to combat fraud and waste in federal programs and
       operations. OIG staff regularly attend ECIE meetings and provide information to the ECIE. During the current
       period, the NEH OIG participated with the Department of Housing and Urban Development OIG, as co-hosts
       for the PCIE and ECIE joint annual conference.



                                           PRIOR AUDIT REPORTS UNRESOLVED


             Report Name                             Report Number                   Date Issued

             Limited Review of the Grants            OIG-02-07 (IR)                  09/10/02
             Management System under the
             Government Information Security
             Reform Act




                                         REGULATORY AND LEGISLATIVE REVIEWS


       The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review pro-
       posed legislation and regulations. The reviews are made to assess whether the proposed legislation and/or
       regulations (1) impact on the economy and efficiency of agency programs and operations, and (2) contain
       adequate internal controls to prevent and detect fraud and abuse. During this period we provided the ECIE
       with comments on various matters affecting the Inspector General.


                                                WORKING WITH THE AGENCY

       In this period, OIG staff attended and engaged in various NEH meetings - panel meetings (where grant
       applications are reviewed by outside consultants), pre-council meetings (where program staff discuss
       panel review results with the chairman and his immediate staff), and the National Council meeting. In addi-
       tion, the IG and Deputy IG attended the chairman's monthly policy group meetings. An OIG staff person
       attended monthly NEH Employee Association meetings. OIG staff was also involved in the review of NEH
       administrative directives.

       The Office of Inspector General contributes to the discussions; however, the office does not participate in
       policy making.


                                                        STRATEGIC PLAN

       In the last semiannual report, the OIG completed the strategic plan that we will be using for the next several
       years. During this period, we issued the plan to agency personnel. A complete review of the plan will be
       done every three years.




NEH OIG Semiannual Report                                    8                                                 March 2004
                                     OTHER ACTIVITIES (Continued)

                                       PEER REVIEW OF NEH ~ OIG AUDIT FUNCTION


       During the prior reporting period, the NEH OIG audit function was reviewed by the United States International
       Trade Commission OIG. The objective of the review was to assess whether the OIG’s internal quality control
       system was designed in accordance with the quality standards established by the President’s Council on Integ-
       rity and Efficiency (PCIE) and was being complied with for the year ended March 31, 2003 to provide reason-
       able assurance of material compliance with professional auditing standards in the conduct of audits. The re-
       view was conducted in conformity with standards and guidelines established by the PCIE. A final report was
       issued January 14, 2004.


                                                  OIG INTERNET AND INTRANET



        The OIG has listed several semiannual reports on the Internet. The reports are accessible through the NEH
        homepage and the Inspectors General homepage (http://www.neh.gov/whoweare/OIG.html).

        To enhance the NEH staff's recognition of the OIG mission and responsibilities, we provide links to several
        other federal agencies such as the Office of Management and Budget, the General Accounting Office, the
        Office of Government Ethics, and the IGNET.



                                           INVESTIGATION ASSISTANCE GIVEN TO IMLS


         Under agreement with Institute of Museum and Library Services, (IMLS), the NEH OIG provides investigative
         services to IMLS. During this period, the OIG performed investigative work for IMLS concerning a grantee in
         Connecticut. The investigation is ongoing at March 31, 2004.


                                                 TECHNICAL ASSISTANCE

         Throughout the reporting period, OIG staff provided telephone technical assistance to NEH grantees and
         independent public accountants concerning various matters including the preparation of indirect cost propos-
         als and the implementation of federal audit requirements.




NEH OIG Semiannual Report                                   9                                                 March 2004
                                                          TABLE I

                                       REPORTING REQUIREMENTS


       The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting requirements for
       semiannual reports. The requirements are listed and cross-referenced to the applicable pages in this report.


       IG Act Reference        Reporting Requirements                                           Page

       Section 4(a)(2)         Regulatory and Legislative Reviews………………………………                   *

       Section 5(a)(1)         Significant Problems, Abuses, and Deficiencies…………………            *

       Section 5(a)(2)         Recommendations for Corrective Action ………………………… *

       Section 5(a)(3)         Prior Significant Recommendations Unimplemented…………… *

       Section 5(a)(4)         Matters Referred to Prosecutive Authorities……………………… 8

       Section 5(a)(5)         Instances Where Information Was Refused or Not Provided…… *

       Section 5(a)(6)         List of Audit Reports Issued………………………………………… 2

       Section 5(a)(7)         Summary of Significant Reports…………………………………… 3-5

       Section 5(a)(8)         Audit Reports - Questioned Costs….……………………………… *

       Section 5(a)(9)         Audit Report - Funds To Be Put to Better Use.…….…………….. *

       Section 5(a)(10)        Prior Audit Reports Unresolved…………………………………..… 9

       Section 5(a)(11)        Significant Revised Management Decisions………………………. *

       Section 5(a)(12)        Significant Management Decisions with which OIG Disagreed…..*



       * None this period




NEH OIG Semiannual Report                                  10                                                March 2004
                                                    TABLE II
                                       INSPECTOR GENERAL-ISSUED REPORTS
                                             WITH QUESTIONED COSTS


                                                                                 Number Questioned Unsupported
                                                                                Of Reports Cost       Cost


A. For which no management decision has been made by the                             -0 -    $ -0 -       $ -0 -
   commencement of the reporting period.


B. Which were issued during the reporting period.                                    -0 -   $ -0 -        $ -0 -


                                  Subtotals (A+B)                                    -0 -   $ -0 -        $ - 0-


C. For which a management decision was made during
   the reporting period.

        i.    Dollar value of disallowed costs.                                      -0 -   $ -0 -     $ - 0-


        ii.   Dollar value of costs not disallowed (grantee subsequently             -0 -   $ -0 -     $ - 0-
              supported all costs).


D. For which no management decision has been made by the end                         -0 -   $ -0 -     $ - 0-
   of the reporting period.


E. Reports for which no management decision was made within                          -0 -   $ -0 -        $     -0 -
   six months of issuance.



                                                 TABLE III
                                     INSPECTOR GENERAL-ISSUED REPORTS
                            WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                                              Number          Dollar
                                                                                             Of Reports       Value

A. For which no management decision has been made by the commencement                           -0 -          $-0 -
   of the reporting period.

B. Which were issued during the reporting period.                                               - 0-          $-0 -

C. For which a management decision was made during the reporting period.                        - 0-           $ -0 -

        i. Dollar value of recommendations that were agreed to by management.                   - 0-          $-0 -

        ii. Dollar value of recommendations that were not agreed to by management.              -0 -          $-0 -

D. For which no management decision was made by the end of the reporting period.                -0 -          $-0 -




NEH OIG Semiannual Report                                    11                                               March 2004
                            GLOSSARY OF AUDIT TERMINOLOGY


  Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision of a law,
  regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure of
  funds; because such cost is not supported by adequate documentation; or because the expenditure of funds for
  the intended purpose is unnecessary or unreasonable.

  Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the time of the
  audit.

  Disallowed Cost - A questioned cost that management, in a management decision, has sustained or agreed
  should not be charged to the government.

  Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be used more
  efficiently by reducing outlays, de-obligating program or operational funds, avoiding unnecessary expenditures, or
  taking other efficiency measures.

  Management Decision - The evaluation by management of the audit findings and recommendations and the
  issuance of a final decision by management concerning its response to such findings and recommendations.

  Final Action - The completion of all management actions, as described in a management decision, with respect to
  audit findings and recommendations. When management concludes no action is necessary, final action occurs
  when a management decision is made.

  Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-504).




NEH OIG Semiannual Report                                  12                                              March 2004
